No.

In The
SUPREME COURT OF THE UNITED STATES

Juan A. Martin-de-Nicolas,
Applicant,
v.
AAA Texas County Mutual Insurance Company,
Respondent.

APPLICATION TO EXTEND TIME TO
FILE PETITION FOR WRIT OF CERTIORARI

Directed to the Honorable Samuel A. Alito, Jr.
Associate Justice of the United States Supreme Court
and Circuit Justice for the Fifth Circuit

Submitted by:
Juan A. Martin-de-Nicolas (Pro, Se)
5604 Woodview Avenue
Austin, TX 78756
Phone: 512-565-1498

July 22, 2019

APPLICATION TO EXTEND TIME
Pursuant to Rule 13.5 of the Rules of this Court, Applicant Juan A. Martin-deNicolas hereby requests a 60-day extension of time within which to file a petition for
writ of certiorari up to and including Monday, September 30, 2019.

JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is Juan A. Martin-de-Nicolas
v. AAA Texas County Mutual Insurance Company, in the Texas Third Court of
Appeals (Austin, TX), No. 03-17-00054-CV (April 19, 2018) (attached as
Appendix—A). The Supreme Court of Texas denied Applicant's petition for
review on January 25, 2019, and denied Applicant's motion for rehearing on
May 3, 2019 (attached as Appendix—B).

JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari
in this case pursuant to 28 U.S.C. § 1254(1). Pursuant to Rules 13.1, 13.3, and 30.1
of the Rules of this Court, Applicant's petition for writ of certiorari is due to be filed
on or before August 1, 2019. In accordance with Rule 13.5, this application for
extension of time is being filed at least 10 days before the date the petition for
writ of certiorari is due.

REASONS JUSTIFYING AN EXTENSION OF TIME
Applicant needs a 60 day extension of time to file the petition for writ of
certiorari because several of his family members are chronically ill and are in need

1

II

of assistance. Applicant has been devoting an inordinate amount of time, day and
night, to lovingly care for these family members and has been unable to finish his
petition for review. Applicant is sleep deprived and truly needs the 60 days
requested to be able to submit a cogent petition for writ of certiorari, while still
caring for his family members who need assistance.

CONCLUSION
For the reasons stated above, Applicant respectfully requests that this Court
grant an extension of 60 days, up to and including Monday, September 30, 2019,
within which to file a petition for a writ of certiorari in this case.

Respectfully submitted,

J an A. Martin-de-Nicolas (Pro Se)
604 Woodview Ave.
Austin, TX 78756
512-565-1498

